SEMIANNUAL REPORT TO CONGRESS




       U.S. ELECTION ASSISTANCE
               COMMISSION
    OFFICE OF INSPECTOR GENERAL




For the Period:
October 1, 2008, through
March 31, 2009
U.S. Election Assistance Commission
    Office of Inspector General
A Message from the Inspector General

This report is submitted to Congress pursuant to the Inspector General
Act of 1978, as amended. It summarizes the activities of the Office of
Inspector General (OIG) for the six-month period ending March 31, 2009.


During this semiannual period, we issued four significant reports on the
U.S. Election Assistance Commission’s (EAC) financial statements,
programs and operations. The audits revealed material weaknesses in
EAC’s financial management and a significant deficiency in its
information technology operations. The reports contained 47
recommendations to improve the operations of the EAC.


In addition, we issued three reports on the states’ uses of Help America
Vote Act (HAVA) funds. We found that for the most part states are using
HAVA funds properly, but there were issues with procurement processes,
documenting expenses—including salaries—and inventorying equipment
purchased with Federal funds.


Our work reflects the mandate of the OIG to identify, fraud, waste and
abuse and to recommend appropriate actions. The OIG is committed to
conducting reviews and making recommendations to improve and protect
the integrity of the EAC’s programs and operations. Over the past six
months, the OIG has added two new positions to enhance our ability to
carry out these functions. We have hired a Director of Audits and a
Counsel to the Inspector General.


I would like to thank the hardworking and dedicated professionals on my
staff. We have identified major challenges at the EAC through our work
over the last six months. With their help and the efforts of the EAC staff,
we will work together to assist the EAC in identifying and implementing
policies and procedures to overcome those challenges.


Submitted April 28, 2009



Curtis W. Crider
Inspector General
Reports Issued and Profile of Performance


                  Audit and Evaluation Reports Issued
    for the Period October 1, 2008, through March 31, 2009




          25.0%
                                           37.5%
                                                     3 Internal Audits
                                                     3 HAVA State Audits
                                                     2 Internal Evaluations


                  37.5%




                          Profile of Performance
    for the Period October 1, 2008, through March 31, 2009

Results
Questioned Costs                                   $ 261,808
Potential Additional Program Funds                  $ 5,289
Funds to be Put to Better Use                         $0
Table of Contents

                                                    Page


Election Assistance Commission Profile               1


Office of Inspector General Profile                  2
                                                     3
EAC’s Management Challenges

Reviews of EAC Operations                            4

State Audits                                         7

Other Activities                                     9


Appendices:


     A. Reports Issued                              11
     B. Monetary Impact of Audit Activities         13
     C. Reports with Questioned Costs               14
     D. Reports with Potential Additional Program   15
        Funds
     E. Summary of Reports More Than 6 Months       16
        Old Pending Corrective Action At March
        31, 2009
     F. Reporting Requirements of the Inspector     17
        General Act
This Page Left Blank Intentionally.
EAC Profile

The U.S. Election Assistance Commission (EAC or Commission) is a
bipartisan, independent commission consisting of four members: Gineen
Bresso Beach, Chair; Gracia Hillman, Vice Chair; and Donetta Davidson.
There is one vacancy on the Commission due to the resignation of a
Commissioner in February 2009.


The EAC was created by the Help America Vote Act of 2002 (HAVA) to
assist states with improving the administration of elections for Federal
office. EAC accomplishes this mission by providing funding, innovation,
guidance and information that can be used by the states to purchase
equipment, train election personnel, and implement new election
programs. EAC has distributed more than $3.1 billion in funding to the
50 states, the District of Columbia, Puerto Rico, the U.S. Virgin Islands,
Guam and American Samoa (hereinafter referred to as “states”). With
those funds, the states have purchased voting equipment, established
statewide voter registration lists, implemented provisional voting,
provided informational material to voters at the polling place, and
implemented a program to verify the identity of voters using the
statewide voter registration list in combination with other state and
Federal databases.


HAVA also placed EAC in charge of the first Federally-run testing and
certification program for voting systems. Through its program, the EAC
develops standards for voting equipment, accredits laboratories, and
reviews and certifies voting equipment based upon the tests performed
by the accredited laboratories.


EAC also has the responsibility for administering the National Voter
Registration Act (NVRA) by promulgating regulations for the content and
use of the National Mail Voter Registration form. EAC inherited the
responsibility from the Federal Election Commission.




                                      1
OIG Profile

The EAC is a designated Federal entity under the Inspector General Act
(IG Act) of 1978 (Public Law 95-452, as amended). As such, the
Commission in August 2006 appointed the Inspector General. The OIG
also employs a senior auditor and a general counsel.


We perform the duties of the Inspector General as established in the IG
Act, including:


      Conducting and supervising audits, investigations, and other
       services (e.g., evaluations) relating to the programs and operations
       of the EAC;


      Providing leadership and coordination, and recommending actions
       to management, which (1) promote economy, efficiency, and
       effectiveness in agency programs and operations; and (2) prevent
       and detect fraud, waste, abuse, and mismanagement of
       government resources; and


      Keeping the agency head, management, and Congress fully
       informed regarding problems and deficiencies, and the progress of
       corrective actions.


To accomplish all of this with our limited staff, we use contract auditors
to conduct many of the state and agency audits. In addition, when
conducting an investigation, we work with other Federal government
agencies to detail or contract for investigative services.


The OIG has experienced significant success with its audit programs over
the past two and half years. Audits of states that have received HAVA
funds have covered 19 states and more than $ 750 million in
expenditures at a cost of only $2 million. For that $2 million, we have
identified $22.4 million in audit findings—a return on investment of


                                      2
approximately $11 for each dollar spent on OIG audits. Further, the OIG
has assisted the EAC by identifying needed improvements to its programs
and operations.

EAC’s Management Challenges

In keeping with the requirements of the Chief Financial Officers Act of
1990 and the Reports Consolidation Act of 2002, the OIG identified two
management challenges in 2008: (1) management and accountability,
and (2) financial management. These management challenges were
derived from the assessment report delivered by this office in February
2008 and the financial statement audit.


The OIG not only works to identify management challenges, but also to
ensure that the EAC implements policies, procedures and programs to
overcome those challenges. Our monitoring of EAC activities disclosed
that the EAC has developed some policies to clarify the roles of senior
management: the Commissioners and the Executive Director. In
addition, they have adopted a strategic plan that provides guidance for
addressing the critical issues facing the Commission in the coming years.
Similarly, we are monitoring EAC’s progress on improving financial
management controls and procedures. EAC has hired persons with
Federal experience to staff its financial management operations. We are
awaiting new policies and procedures for those activities.




                                    3
Reviews of EAC Operations

Opinion on EAC’s Fiscal Year 2008 Financial Statements

In fiscal year 2008, the EAC received more than $25 million and, as a
result, was subject its first financial audit as required by the
Accountability of Tax Dollars Act of 2002. The audit was performed by
Clifton Gunderson LLP under a contract that was monitored by the OIG.


The auditors were unable to express an opinion on the EAC’s balance
sheet as of September 30, 2008, and on the related statements of net
cost, changes in net position, and the statement of budgetary resources
for the year then ended. This disclaimer resulted from the EAC’s inability
to provide sufficient, appropriate evidence to allow the auditors to
conduct the audit. Because the EAC was unable to provide the needed
evidence and documentation, the auditors also were unable to test EAC’s
compliance with laws and regulations. The audit identified four material
weaknesses, as follows:


   (1) Financial accounting and reporting controls,
   (2) Lack of support for grant accounting,
   (3) Weak funds control, and
   (4) Federal Managers’ Financial Integrity Act compliance and reporting.


The audit identified one significant deficiency related to information
technology.


The EAC generally concurred with the findings and recommendations of
the audit and indicated that corrective actions would be taken.




                                      4
Compliance with Privacy and Data Protection Requirements

An audit of EAC’s compliance with Section 522 of the Consolidated
Appropriations Act of 2005 identified several areas of noncompliance
with privacy and data protection requirements. The EAC had not
designated a Chief Privacy Officer, identified information systems
housing personally identifiable information, or conducted related Privacy
Impact Assessments as required by the Office of Management and Budget
Memorandum 06-16, Requirements for Protecting Personally Identifiable
Information.


In addition, the EAC had not developed policies and procedures to
address the information protection needs associated with personally
identifiable information that is accessed remotely or physically removed.
The EAC did not have policies and procedures that:


   (1) Explicitly identify the rules for determining whether physical
      removal is allowed;
   (2) Require encryption of information and that appropriate procedures,
      training and accountability measures be in place to ensure that
      remote use of this encrypted information does not result in
      bypassing the protections provided by the encryption;
   (3) Explicitly identify the rules for determining whether remote access
      is allowed for personally identifiable information that can be
      removed;
   (4) Require remote access of information be accomplished via a virtual
      private network connection established using agency-issued
      authentication certificate(s) or hardware token, when remote access
      is allowed; and
   (5) Identify the rules for determining whether the download or remote
      storage of information is allowed, when remote access is allowed.


The EAC generally concurred with the findings and recommendations of
the audit and indicated that corrective actions would be taken.



                                     5
FISMA Evaluation

The fiscal year 2008 Financial Information Security Management Act
(FISMA) evaluation reported that the EAC had made progress in educating
users through security and privacy awareness training and had initiated
discussions to develop EAC specific policies related to information system
security and privacy. However, additional improvements were needed.
The evaluation found that the EAC had not established an information
security program and was not proactive in reviewing security controls and
identifying areas to strengthen this program. In addition, the EAC did not
fully comply with several privacy and data protection requirements.


The EAC generally concurred with the findings and recommendations of
the evaluation and indicated that corrective actions would be taken.


Internet Usage

The objective of the evaluation was to determine whether the EAC had
implemented effective controls to ensure compliance with internet usage
policies. The review covered internet activity from August 24, 2008,
through September 6, 2008, and focused on access to sexually explicit,
gambling, gaming, and auction sites. The evaluation found that the EAC
had effective controls to prevent access to sexually explicit, gambling,
gaming, and auction sites.




                                     6
State Audits

The OIG conducts audits of the recipients of HAVA funds. Through those
audits, the OIG examines whether the recipient used HAVA funds in
accordance with HAVA and other applicable Federal requirements. We
also determine whether the recipient has properly accounted for
purchases made with HAVA funds and any income derived from those
purchases. Last, we assessed whether grant funding has been
maintained and accounted for in keeping with HAVA, particularly,
whether the recipient has provided sufficient matching funds and
maintained Federal monies in a separate election fund.


During the reporting period, the OIG contracted with the professional
auditing firm Clifton Gunderson LLP to conduct the audits. Three reports
were issued based upon those audits:


North Carolina: The audit of the North Carolina State Board of Elections
(SBE) revealed that the SBE generally accounted for and expended HAVA
funds in accordance with the HAVA requirements and complied with the
financial management requirements established by the EAC. The SBE also
complied with section 251 requirements. However, the SBE did not (1)
properly account for and report interest and state matching of funds, and
(2) the SBE did not file comprehensive financial reports with the EAC.


In its July 16, 2008, and October 17, 2008, responses to the draft report,
the SBE agreed with the report’s findings and recommendations, and
provided corrective actions.


Florida: An audit of the Florida Secretary of State (SOS) disclosed that the
SOS generally accounted for and expended HAVA funds in accordance
with the HAVA requirements and complied with the financial management
requirements established by the EAC. The SOS also complied with
section 251 requirements. The audit did reveal several weaknesses
related to counties that received funds as a subgrantee from the SOS.


                                     7
Issues identified at the county level included weaknesses in program
income accounting and recognition, equipment controls, procurement
and disbursement procedures, and cash management controls.


In its July 16, 2008, response to the findings and recommendations, the
SOS was in general agreement, and proposed to implement corrective
action. However, the SOS was in partial disagreement with requiring the
reimbursement of those questionable expenditures that were included in
plans approved by the state’s Division of Elections, and disagreed with
the recommendation to have counties compute and repay interest that
should have been earned on unexpended HAVA balances from the date of
receipt. The EAC is in the process of resolving the outstanding issues
with the SOS.


Washington: An audit of the Washington Secretary of State (SOS) found
that the SOS accounted for and expended HAVA funds in accordance with
the HAVA requirements and complied with the financial management
requirements established by the EAC. The SOS also complied with section
251 requirements. The report did not include any recommendations.




                                    8
Other Activities

The IG Act requires reporting on other activities. We are reporting no
activities in the following categories:


      Reviews of Legislation, Rules, Regulations and Other Issuances
       OIG conducts regular monitoring of EAC program activities and
       policy-making efforts. We provide comment to significant policy
       statements, rulemaking and legislation that affects the EAC.
       During the reporting period, there were no significant policy-
       making or program activities undertaken on which the OIG
       provided comment.


      Investigations
       The OIG operates a hotline for the receipt of complaints from
       employees and members of the public. While the OIG received 37
       complaints on its hotline during the reporting period, those
       complaints were referred to another agency deemed more
       appropriate for resolution or did not warrant an investigation given
       the general nature of the complaint. The OIG did not initiate any
       investigations of hotline or other complaints during the reporting
       period.


      Matters Referred to Prosecuting Authorities


      Denial of Access to Records


      Significant Revised Management Decisions Made During the Period


      Significant Management Decisions with Which the Inspector General
       Disagrees




                                      9
This Page Left Blank Intentionally.




                10
                                                            Appendix A
Reports Issued


Audits              1. Audit of the U.S. Election Assistance
                    Commission’s Fiscal Year 2008 Financial
                    Statements (Assignment No. I-PA-EAC-01-08),
                    November 2008


                    2. Audit of U.S. Election Assistance
                    Commission’s Compliance with Section 522 of
                    the 2005 Consolidated Appropriations Act
                    (Assignment No. I-PA-EAC-02-08), March
                    2009

Management Letter   1. Management Issues Identified During the
                    Audit of the U.S. Election Assistance
                    Commission’s Fiscal Year 2008 Financial
                    Statements (Assignment No. I-PA-EAC-01-
                    08(A)), March 2009

State Audits        1. Administration of Payments Received Under
                    the Help America Vote Act by the North
                    Carolina State Board of Elections (Assignment
                    Number E-HP-NC-04-08), October 2008


                    2. Administration of Payments Received Under
                    the Help America Vote Act by the State of
                    Washington Secretary of State (Assignment
                    Number E-HP-WA-05-08), November 2008


                    3. Administration of Payments Received Under
                    the Help America Vote Act by the State of
                    Florida (Assignment Number E-HP-FL-02-08),
                    November 2008



                             11
Evaluations   1. United States Election Assistance
              Commission Federal Information Security
              Management Act 2008 Independent Evaluation
              Report (Assignment No. I-EV-EAC-01-08),
              October 2008


              2. United States Election Assistance
              Commission Internet Usage (Assignment No. I-
              EV-EAC-02-08), February 2009




                       12
                                                       APPENDIX B
Monetary Impact of Audit Activities


Questioned Costs*                                      $ 261,808
Potential Additional Program Funds                       $ 5,289
Funds to Be Put to Better Use                                $0
Total                                                  $ 267,097
*Unsupported costs are included in questioned costs.




                                         13
                                                           APPENDIX C
Reports With Questioned Costs

                                            Questioned    Unsupported
            Category             Number        Costs         Costs

A. For which no management
decision had been made by
the beginning of the reporting
period.                            1        $ 6,308,350       $0

B. Which were issued during
the reporting period.              1         $ 261,808        $0

Subtotals (A + B)                  2        $ 6,570,158       $0

C. For which a management
decision was made during the
reporting period.                  1        $ 6,308,350       $0

 (i) Dollar value of
recommendations that were
agreed to by management.                    $ 6,308,350       $0

 (ii) Dollar value of
recommendations not agreed
to by management.                               $0            $0

D. For which no management
decision has been made by
the end of the reporting
period.                            1         $ 261,808        $0

E. Reports for which no
management decision was
made within 6 months of
issuance.                          0            $0            $0




                                       14
                                                     APPENDIX D
Reports With Potential Additional Program Funds

            Category                     Number   Dollar Value

A. For which no management                        $ 899,367
decision had been made by the
beginning of the reporting
period.                                    1

B. Which were issued during the                      $ 5,289
reporting period.                          2

Subtotals (A+B)                            3      $ 904,656

C. For which a management                         $ 901,434
decision was made during the
reporting period.                          2

 (i) Dollar value of                              $ 901,434
recommendations that were agreed
to by management.

 (ii) Dollar value of                                 $0
recommendations that were not
agreed to by management.

D. For which no management                 1         $ 3,222
decision has been made by the end
of the reporting period.

E. Reports for which no                    0          $0
management decision was made
within six months of issuance.




                                    15
                                                                      APPENDIX E
Summary of Reports More Than 6 Months Old Pending
Corrective Action at March 31, 2009

The following is a list of audit and evaluation reports that are more than 6
months with management decisions for which corrective action has not been
completed. It provides report number, title, issue date, and the number of
recommendations without final corrective action.

E-HP-IL-07-06              Administration of Payments Received Under the Help
                           America Vote Act by the Illinois State Board of
                           Elections, October 2006, 2 Recommendations

E-HP-SC-11-06              Administration of Payments Received Under the Help
                           America Vote Act by the South Carolina Election
                           Commission, January 2007, 3 Recommendations

E-HP-WY-03-07              Administration of Payments Received Under The Help
                           America Vote Act by the Wyoming Secretary Of State
                           Elections Division, January 2008, 2 Recommendations

E-HP-NM-01-07              Administration of Payments Received Under the Help
                           America Vote Act by the New Mexico Secretary of
                           State, May 2008, 5 Recommendations

I-PA-EAC-01-06             Improvements Needed in Management of Travel by the
                           Election Assistance Commission, July 2007,
                           4 Recommendations

I-EV-EAC-01-07B            Assessment of the U.S. Election Assistance
                           Commission’s Program and Financial Operations,
                           February 2008, 20 Recommendations




                                        16
                                                                           APPENDIX F
Reporting Requirements of the IG Act

Section of Act                            Requirement                           Page

Section 4(a)(2)    Review of Legislation and Regulations                        None

Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies               None

Section 5(a)(2)    Recommendations for Corrective Action With Respect to        None
                   Significant Problems, Abuses, and Deficiencies

Section 5(a)(3)    Significant Recommendations From Agency’s Previous
                   Report on Which Corrective Action Has Not Been Completed       16

Section 5(a)(4)    Matters Referred to Prosecutive Authorities and Resulting    None
                   Convictions

Section 5(a)(5)    Matters Reported to the Head of the Agency                   None

Section 5(a)(6)    List of Reports Issued During the Reporting Period             11

Section 5(a)(7)    Summary of Significant Reports                                 4

Section 5(a)(8)    Statistical Table – Questioned Costs                           14

Section 5(a)(9)    Statistical Table – Recommendations That Funds Be Put to     None
                   Better Use

Section 5(a)(10)   Summary of Audit Reports Issued Before the                   None
                   Commencement of the Reporting Period for Which No
                   Management Decision Has Been Made

Section 5(a)(11)   Significant Revised Management Decisions Made During         None
                   the Reporting Period

Section 5(a)(12)   Significant Management Decisions With Which the Inspector    None
                   General Is in Disagreement

Section 5(a)(13)   Information Described Under Section 804(b) of the Federal    None
                   Financial Management Improvement Act of 1996




                                           17
This Page Left Blank Intentionally.




                18
OIG’s Mission              The OIG audit mission is to provide timely, high-quality professional
                           products and services that are useful to OIG’s clients. OIG seeks to
                           provide value through its work, which is designed to enhance the
                           economy, efficiency, and effectiveness in EAC operations so they work
                           better and cost less in the context of today's declining resources. OIG
                           also seeks to detect and prevent fraud, waste, abuse, and
                           mismanagement in these programs and operations. Products and
                           services include traditional financial and performance audits, contract
                           and grant audits, information systems audits, and evaluations.

Obtaining Copies           Copies of OIG reports are available on the OIG website,
                           www.eac.gov/eac_ig.
of OIG Reports
                           Copies of OIG reports can be requested by e-mail: (eacoig@eac.gov).

                           Mail orders should be sent to:
                                U.S. Election Assistance Commission
                                Office of Inspector General
                                1225 New York Ave. NW - Suite 1100
                                Washington, DC 20005

                           To order by phone: Voice:    (202) 566-3100
                                                 Fax:   (202) 566-0957

To Report Fraud, Waste     By Mail: U.S. Election Assistance Commission
                                     Office of Inspector General
and Abuse Involving the
                                     1225 New York Ave. NW - Suite 1100
U.S. Election Assistance
                                     Washington, DC 20005
Commission or Help
America Vote Act Funds     E-mail:   eacoig@eac.gov

                           OIG Hotline: 866-552-0004 (toll free)

                           On-Line Complaint Form: www.eac.gov/eac_ig

                           FAX: 202-566-0957
           Inspector General
          U.S. Election Assistance Commission




This report, as well as other OIG reports and testimony, are available on the
internet at: www.eac.gov/eac_ig
